I

Id




             --
              -
             -staff
                              I-

                                            CLOSEOUT FOR M92020009
                     On February 19, 1992 the complainant,
                              in NSF's Office o
              she had with the subject,
                                                            f

                                Program in the Directorate for
                                                                                   a member of the    0
                                                                         ( informed OIG of a conversation
                                                             then a rotating program director for hte).
                                                                                                           The
              complainant alleged that the subject had inappropriately represented an outside organization he
              had worked for in a conversation with her in which they discussed their strongly different views
              of NSF support for research at

                      According to the complainant, the subject had cited his work on an NSF grant to an
              outside organization, the                                when, during their policy discussion, he
    '
              stated his experience and credentials. The complainant was concerned that the subject's
              statement was a possible violation of the conflict-of-interest rules that ban representational
              activities. 'She complainant was also concerned about the appropriateness of NSF providing
              support to outside organizations such as that which had employed the subject. The complainant's
              perception was that NSF funds for projects by the outside organization and similar institutions
              were used by the awardees to seek further funding from NSF. The complainant requested, and
              was granted, confidential source status.

                      OIG reviewed the award to the outside organization and found that the subject had
              provided limited, part-time services, in connection with an NSF award, to that outside
              organization        to his employment by NSF. A formal recusal was not required and was not
              found in the award jacket or the conflict-of-interest files maintained by NSF's 0fflc-eof General
              Counsel. The subject responded to OIG's request for information by stating that he had formally
              disassociated himself from the outside organization's NSF award and showed that the publication
              resulting from the award cited his departure date as preceding his employment at NSF. The
              name of the individual that replaced him appears in the list of organization officers. The subject
              stated that during his employment by NSF he had not received any compensation from the award
              and had not represented the project to any NSF staff during his employment or the following
              Year.
                      OIG reviewed the award history for the outside organization and similar institutions
              mentioned by the complainant. The proposals by these organizations were different than basic
              research proposals in that they were designed to develop new educational policies. Such efforts
        I     generally result in an advocacy document promoting a particular policy and a request for further
              funding. OIG could not find a trend indicating that these organizations were unusually successful
              in receiving support for their proposals. OIG found that the project the subject was associated
              with has received support from the Foundation for four related proposals, the first for a pilot
              project, the second and third (a renewal) for a full-scale study, and the third for the
              implementation of the recommendations of the study. The pattern of this support was comparable
        I     to that seen when an NSF program provides "long-term" support for a basic researcher's project
            , by funding that researcher's successive renewal proposals.
        I




                                                         Page 1 of 2
                              CLOSEOUT FOR M92020009
        Rotating program officers are hired by the Foundation with the intent that they will bring
with them a high level of understanding and enthusiasm for their programs. OIG was unable
to find any evidence to support the allegation that the subject had inappropriately advocated or
lobbied for support of.the outside organization and further was unable to find evidence that the
subject had inappropriate contact with that outside organization during his employment at NSF.
Therefore, OIG closed this case without further action.




Concurrence:



                                    [/   12 7/73                0.? w w t m d L
Donald E. Buzzelli                                 ~ d e J.s Z&e&
Deputy Assistant Inspector General for             Assistant Inspector General for Oversight
Oversight



~ o n i ~ o m e K.
                r y Fisher
Counsel to the Inspector General

cc:    Signatories
       Inspector General




                                             Page 2 of 2


                                              ~79~-01
